                                  AUDIT




 GOVTRIP USE AND MONITORING BY THE
 U.S. DEPARTMENT OF THE INTERIOR—
 BUREAU OF INDIAN AFFAIRS




Report No.: WR-IN-BIA-0005-2013   May 2013
                   OFFICE OF
                   INSPECTOR GENERAL
                   U.S.DEPARTMENT OF THE INTERIOR

                                                                                                  MAY .2 ·1 2013
Memorandum

To:                  Kevin K. Washburn
                     Assistant Secretary - Indian Affairs

From:                Kimberly Elmore ~ ~
                     Assistant Inspector General for A udits, Inspections, and Evaluations

Subject:             Final Audit Report- GovTrip Use and Monitoring by the U.S. Department of the
                     Interior- Bureau of Indian Affairs
                     Report No. WR-IN-BIA-0005-2013

       The U.S. Department of the Interior (DOl) spends approximately $250 million a year
through GovTrip on travel, with the Bureau of Indian Affairs (BIA) and Bureau of Indian
Education (for purposes of this report, both bureaus are combined and referenced as BIA)
accounting for about $32 million of these funds.

        This report is part of our DOl-wide audit of GovTrip and related travel processes and
procedures. Although the contract for a new system is scheduled to replace GovTrip in
November 2013, we found several significant issues specific to BIA that warrant your attention
under the current GovTrip travel system. We plan to issue an audit report to the Deputy
Secretary that will focus on DOl' s planned acquisition and use of a new travel management
system.

        We initiated an audit of DOl's GovTrip use and monitoring based on limitations in
GovTrip that we discovered during a prior evaluation, including DOl's and its bureaus' inability
to freely access travel system reports from GovTrip and the uncertainty ofthe reliability of the
data in those reports. 1 We determined that the risks presented by these limitations were
significant enough to warrant further review.

        The objective of our audit was to assess DOl's implementation, use, and monitoring of
GovTrip as a part of the overall travel system. Specifically, we assessed DOl's ability to
reconcile its various systems to determine whether data and dollars spent are fair and accurate.
The audit scope encompassed fiscal years 2009 and 2010 and included testing of more than 700
travel vouchers and 300 charge card statements across DOl's bureaus. We also interviewed more
than 100 DOl and bureau personnel involved in the travel process, including approving officials,
intermediate reviewers, and bureau travel leads.

       We conducted this audit in accordance with Generally Accepted Government Auditing
Standards. These standards require that we plan and perform the audit to obtain sufficient,

1   "U.S. Department ofthe Interior's Video Teleconferencing Usage," WR-EV-MOA-0004-20!0 . December 201 I.


                                Office of Audits, Inspections, and Evaluations I Washington, DC
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We are attaching further detail as to the
objective, scope, methodology, and testing performed during this audit (see Attachment 1).

Background

        Since August 2007, DOI has used GovTrip under a task order from the General Services
Administration’s (GSA) master contract with Northrop Grumman for E-Gov Travel Services
(ETS). GSA’s master contract establishes GovTrip’s general requirements, and DOI’s task order
lays out other specific requirements. GSA’s master contract is set to expire in November 2013, at
which time DOI expects a new system to take the place of GovTrip under a new GSA contract
(ETS-2).

        GSA has selected a single vendor for ETS-2, though the system implementation process
is behind schedule. The bid process was initially delayed by legal challenges from one of the
bidding companies, and a current protest of the award is delaying the process even further. ETS-
2’s general requirements include more internal control points and reporting capabilities, but
much about ETS-2’s specific requirements and controls is still unknown. The unknown and
untested components of the new contract and travel system present both an opportunity and a
responsibility to assess how well BIA uses the current system and to determine ways in which it
can improve prior to the transition to ETS-2.

        Both GovTrip and the pending ETS-2 system have the Federal Travel Regulation (FTR)
as part of their foundation, which provides the regulatory framework for the approval,
processing, and payment of travel costs within the Federal Government. The GovTrip system has
worked in concert with these regulations to facilitate travel planning and payment, as will the
pending ETS-2 when it is in place.

Issues Found During Travel Voucher Testing

        We randomly selected 99 BIA vouchers and their related authorizations from fiscal years
2009 and 2010, though for reasons outlined below we could fully audit only 72 vouchers. The
total amount paid from these vouchers was about $138,000, which included almost $52,000 paid
directly to travelers. We found the following areas of concern:

Missing Documentation and Errors in Expenses

        The FTR requires that receipts be provided for all expenses greater than $75, as well as
all receipts for lodging expenses, regardless of dollar amount (FTR §301-52.4). We found three
vouchers that did not have the required supporting documentation for hotel charges, often one of
the highest value expenses on vouchers.

       In addition, FTR §301-10.4 requires the most advantageous and expeditious method of
transportation be used. In general, the FTR deems a common carrier to be the most expeditious.
Five vouchers, however, showed the use of the traveler’s personal vehicle (POV). Only one of



                                                                                                 2
the vouchers included partial support for this allowance, which was based on the traveler’s
preference to use a POV to make a personal trip during the official travel time, an unacceptable
basis for determining the most expeditious method of transportation. A second voucher showed
the traveler being reimbursed for driving 2,400 miles to attend 3 days of training, and a third
voucher included POV mileage for part of a trip that should have been charged as personal leave.
We also noted that one traveler incurred lodging costs in excess of the amount approved in either
the authorization or voucher, while another claimed per diem during personal travel, which is
unallowable.

        We also found 18 vouchers that either did not include all expenses listed in the travelers’
receipts or the amounts shown on the receipts did not match those claimed on the voucher. For
example, one traveler received hotel and per diem allowances before the travel dates listed in the
voucher and another traveler listed the airfare as a reimbursable expense even though the receipt
showed the airfare was paid for with a Government charge card, which would be direct billed.
Several vouchers included hotel charges that did not match the per diem amounts authorized in
the travel authorization, including one voucher where the approving official gave authorization
for the higher hotel rate after the trip was already completed.

        In addition, an employee claimed per diem for a day trip originating from an official duty
location totaling 30 miles. This claim did not meet DOI’s implementation requirements for FTR
§301-11.1, which does not provide a per diem allowance to an employee within a 50-mile
commuting area. The employee was both the traveler and reviewing official on the voucher. The
absence of separation of duties presents an internal control weakness. In addition, two different
travelers were paid per diem for multiple trips with overlapping dates, effectively paying them
double per diem on the overlapping dates.

         In all of these examples, travelers and associated approving officials requested or
approved travel documents with inappropriate travel allowances or failed to document the
justification for variances from normal or reasonable travel allowances. Whenever travelers
request approval for travel plans, they must meet the FTR requirements. Further, when
submitting vouchers for travel, travelers are required to abide by the FTR rules, and approvers
must affirm that the vouchers they are approving meet these requirements. In each of these
examples, neither the traveler nor the approver met these requirements of due diligence.

Missing Vouchers and Profiles

        Of the 99 vouchers selected for testing from the Northrup Grumman inventory of agency
vouchers for the 2-year testing period, we could access and fully audit 72 vouchers through the
GovTrip production system available to DOI. Of the 27 vouchers we could not review, we were
able to confirm that 25 were not available because the associated user profiles had been removed
from the system, while the remaining 2 vouchers, although initially accessible, became
inaccessible in the DOI production system during the course of our audit.

        While we were attempting to determine why so many documents were not available for
review, the DOI travel lead informed us that the likely cause of document unavailability was
related to the deletion of user profiles from the production system. Because no audit trail exists



                                                                                                     3
in the creation, use, or deletion of user profiles in GovTrip, this statement could not be verified,
nor could changes in user profiles during the period under review be evaluated. For example, one
traveler whose information could no longer be found in the current GovTrip database appears to
have traveled to the same location for close to 2 years. Because our sample selection was
determined based on the universe of vouchers created, as provided by Northrop Grumman, we
were able to see this travel pattern in archive data. Without access to the vouchers for
verification, however, it is unknown if the required reductions in per diem were either enforced
or justifiably exempted, potentially wasting a significant amount of travel funds.

        Vouchers created in GovTrip are not stored in any other system, and if they cannot be
retrieved from GovTrip they cannot be retrieved at all, thus review of the document is not
possible. In addition, even though historical travel data can be obtained directly from the
GovTrip contractor, Northrop Grumman, we found in interviews with BIA and DOI personnel
that managers do not routinely request reports, and contractor officials expressed hesitancy to
provide what they deemed to be additional services or ad hoc reports.

        In addition, the inability to look up historical travel documents limits BIA’s ability to
effectively track and manage expended travel funds. For example, BIA elects to perform a 10
percent random sample of vouchers on a cyclical basis. It is impossible, however, to select or
review vouchers attached to deleted profiles for BIA’s 10 percent random sample audit,
increasing the potential for fraud, waste, or mismanagement to go undetected. GovTrip is the
single repository of detailed travel arrangements, documents, and approvals. Although payment
for travel related expenses is performed in agency financial systems, those systems will record
only the payments, not the supporting detail behind them. Further, because GovTrip is designed
as a paperless electronic system, any gap in the GovTrip database results in a loss of
accountability for an agency. Responsibility for the accuracy and integrity of the travel database
has been, is, and will remain with the agency and DOI.

Authorizations Created after Trip Date

        Of the 72 authorizations selected for testing, 15 authorizations were created or approved
after the trip departure date. Although the FTR does permit this practice, FTR § 301-2.1 states:

       …Generally you must have written or electronic authorization prior to incurring
       any travel expense. If it is not practicable or possible to obtain such authorization
       prior to travel, your agency may approve a specific authorization for
       reimbursement of travel expenses after travel is completed.

         Of the authorizations tested, 20 percent failed to meet the general authorization
requirement, but there is no evidence that they met the “not practicable or possible” standard
stated above for the exemption. Further, the practice of creating or approving an authorization
after trip departure could contribute to an internal control breakdown if approvers feel pressured
to authorize already incurred travel expenses due to the financial impacts that would otherwise
fall to the employee who would be responsible for all travel costs incurred.




                                                                                                     4
Auto-Approval

         GovTrip includes features that allow travel authorizations to be created without
managerial review or approval. Autobooking is one approach that allows travelers to arrange
travel without supervisory approval. Another approach is T-entering, a method by which an
arranger makes travel arrangements, creates travel documents, and signs the documents on behalf
of the traveler. Both features result in travel being created and booked without the benefit of
managerial or traveler review and approval. We found four authorizations that used one of
GovTrip’s auto-approval features. Auto-approval was developed when all travel arrangements
used a paper-based system and was intended to streamline travel arrangements for routine
mission travel and for cases of emergency travel. Because travelers now arrange travel
electronically, and supervisors approve it electronically, the need for auto-approval is greatly
limited. Though we recognize and appreciate that BIA had relatively few auto-approved
authorizations, we found in our testing that auto-approval is being used for travel other than
emergency trips. Because employees are authorized to auto-approve their own travel, the internal
control safeguard inherent in obtaining supervisory approval for the use of staff time and travel
funds before the trip begins is being circumvented, thus increasing the potential for fraud, waste,
or mismanagement to go undetected.

Mode of Transportation Not Documented

         Of the 72 vouchers selected for testing, 16 did not indicate the mode of transportation
used to travel to the temporary duty (TDY) location. Based on the proximity of the TDY location
to the traveler’s duty station or the lack of POV mileage claimed, it is reasonable to assume that
these travelers used a Government-owned vehicle (GOV), a POV, or traveled with another
person. This missing information results in data that is unreliable for determining the true cost of
travel and the frequency or validity of GOV use for fleet management purposes. In addition,
supervisors cannot make a determination whether the mode of transportation for travel is
advantageous to the Government.

Issues Found During Charge Card Statement Testing

        During our audit of the travel process, we learned that the only internal control
mechanism used to ensure the validity of travel charges was the required supervisory review of
charge card statements. When supervisors do not adhere to this internal control, it increases the
risk of management not detecting incorrect or improper charges since there are no other
procedures in place to ensure that supervisors are adequately reviewing and approving both
travel vouchers and charge card statements. Our tests of charge card statements covered a mere
fraction of all BIA travel card statements. Unfortunately, in our selection of 48 charge card
statements across several BIA office locations, we found lax supervisory reviews that
contributed to issues with almost half of the statements reviewed. This presents significant
internal control risk:




                                                                                                    5
Missing Signatures

        Four of the 48 statements tested, almost 10 percent, did not have the required signatures
of both the supervisor and traveler. DOI policy requires supervisors to review statements and
include the signatures of both supervisor and traveler on the statement to show that all charges
have been verified as appropriate and allowable travel expenditures.

Unexplained Transactions

        Of the 48 statements tested, we found 15 statements with expenses that were not reported
in GovTrip or did not match the expenses reported in GovTrip, with questioned costs totaling
almost $1,900. 2 One statement included an airline charge for a trip that had no voucher in
GovTrip at the time of our testing, more than 1 year after the trip took place, leaving open the
possibility that the traveler’s supervisor did not know the trip occurred. Another statement
showed almost $1,500 in lodging expenses that were not accounted for in GovTrip, and a third
statement listed an unsupported rental car charge of more than $200. In addition, several
statements showed expenses that did not match what was entered and approved in GovTrip.

        With more than 30 percent of statements in our sample reflecting some sort of
discrepancy, this issue is both a significant internal control weakness and breakdown, not only
because it results in inaccurate accounting and an inability to rely on GovTrip-generated reports
for effective management, but because it is impossible for supervisors to reconcile expenses on
cardholder’s statements with GovTrip vouchers to verify that those expenses were related to an
approved trip. DOI Integrated Charge Card Program Policy Manual, sec. 2.9.2 states that
travelers are required to “[i]nclude a concise, detailed description for each line item…or attach
the travel voucher” on their charge card statements to ensure that all transactions are legitimate.
Several of these questionable expenses appeared on charge card statements with the signatures of
both the traveler and the supervisor, which demonstrates that supervisors are not adequately
documenting the verification of travel charges back to source documents, further reducing the
intended effectiveness of this key internal control.

Conclusion and Recommendations

        Because ETS-2 is still several months from coming online, BIA has an opportunity to
improve travel management practices under the current GovTrip system and through the
transition. Improving internal controls now will help strengthen overall travel management
controls when BIA fully transitions to the new travel system.

     1. BIA should require supervisors to—

          a. verify that vouchers contain supporting documentation as required by the FTR and
             accurately reflect costs incurred during travel;
          b. ensure travel authorizations are created and approved prior to travel with the only
             exception being bona fide emergency travel;

2
 Due to restricted data access issues, this figure is significantly understated and thus does not represent the total impact of
questioned costs.


                                                                                                                                  6
       c. review vouchers thoroughly and address any unresolved flagged items;
       d. verify and approve all charges on charge card statements; and
       e. ensure that both the traveler and supervisor sign and date charge card statements.

   2. BIA should make changes to correct existing deficiencies, including—

       a. working with the bureau travel leads to ensure that profiles of existing and past
          employees are not deleted from the system;
       b. creating policy limiting the use of auto-approval by employees to legitimate
          emergency travel; and
       c. creating policy requiring supervisors to reconcile charge card statements with travel
          vouchers.

        In the Acting Deputy Assistant Secretary’s March 8, 2013 response, BIA concurred with
the recommendations (see Attachment 2). We consider the recommendations resolved but not
implemented and will refer them to the Assistant Secretary for Policy, Management and Budget
for implementation tracking (see Attachment 3).

       The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all reports issued, actions taken to implement our recommendations,
and recommendations that have not been implemented.

       No response to this report is required. If you have any questions or need more specific
information about this report’s findings, please contact me at 202-208-5592.

Attachments (3)




                                                                                                  7
                                                                                     Attachment 1


Objective, Scope, and Methodology

        We conducted this performance audit from November 2010 through April 2012 in
accordance with Generally Accepted Government Auditing Standards. These standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

        We also determined whether BIA had designed and implemented a system of internal
controls or travel management controls to provide reasonable assurance that travel vouchers were
accurate and supported; authorizations were created and approved prior to travel; and charge
card statements were verified, approved and signed by the traveler and supervisor. We found
weaknesses in BIA’s travel management controls. These weaknesses and recommended
corrective actions are discussed in this report, and if implemented, the recommendations should
improve BIA’s travel management controls.

Objective

        Our objective was to assess the U.S. Department of the Interior’s (DOI) implementation,
use, and monitoring of GovTrip as a part of the overall travel system. Specifically, we evaluated
DOI’s ability to reconcile its various systems to determine whether data and dollars spent are fair
and accurate. We also performed testing to ensure that any existing internal controls were
sufficient to reasonably minimize risk of fraud and errors.

Scope

        This was a DOI-wide audit of GovTrip and the related travel system. Our testing included
travel vouchers with travel departures starting in fiscal years 2009 and 2010 along with charge
card statements related to those travel vouchers. In conducting our audit, we visited BIA offices
in the following locations:

   •    Albuquerque, NM;
   •    Mescalero, NM;
   •    Sacramento, CA;
   •    Reston, VA; and
   •    Portland, OR.

        Our review of the system included both a performance audit of the current ETS contract
(GovTrip, with a contract period from August 2007 to November 2013) and a review of the
future ETS-2 contract language (contract implementation planned for November 2013). We also
assessed DOI’s integrated charge card program as it relates to travel expenditures.

       During the performance of our audit testing, delays in obtaining access to information
and concerns related to timely reporting necessitated a reduction in the sample size and testing of
both vouchers and charge card statements. We took steps, however, to allocate the reduction in


                                                                                                  1
                                                                                      Attachment 1


testing across bureaus, preserving the integrity of our random and judgmental voucher and
charge card statement samples.

Methodology

         The GovTrip contractor, Northrop Grumman, pulled the voucher testing data from
archived databases, as we were informed that this would be the most accurate and complete way
to establish the voucher universe by bureau and agency. From this universe, vouchers were
statistically sampled using a stratified methodology, and the associated authorizations were also
examined. Once the testing sample was selected, we performed testing of travel vouchers and
authorizations using the live GovTrip environment. Use of the live GovTrip system environment
for document examination was required since the travel program has no “read only” audit feature
and no alternative data repository is available to DOI.

       Given that our testing was limited to the live data environment, we were not able to
perform “through the system” testing of the software. Thus, we did not perform tests of the
GovTrip system and software itself. Rather, we structured interview questions of key DOI
personnel to ascertain the security of the system and the viability of the input data.

        The National Business Center, Charge Card Support Center (NBC) provided us with the
charge card data. NBC extracted the charge card data from PaymentNet, DOI’s gateway to
integrated charge card program data, which is operated by the contractor J.P. Morgan Chase. We
did not perform a reliability assessment or any system tests for this data since, like GovTrip, this
is a contractor-developed system, so our testing was limited to structured interview questions of
key DOI personnel to ascertain the security of the system and the viability of the input data.
Once the testing sample was selected, we performed tests in the field to ascertain the accuracy
and reliability of reconciliation efforts between the GovTrip voucher and related charge card
transactions.

Use of Computer-Processed Data

        We used the GovTrip and Integrated Charge Card databases to identify travel vouchers
and charge card transactions for travel departures starting in fiscal years 2009 and 2010. We did
not perform reliability assessments of the quality of the data because this was outside the scope
of our review. Data from these systems were used for document and transaction selection, and
then reviewed using the electronic and hardcopy records available through DOI. Therefore, the
computer-processed data did not affect the performance of our audit steps.




                                                                                                    2
                   United States Department of the Interior                          Attachment 2
                                  OFFICE OF THE SECRETARY
                                     Washington, DC 20240
                                          MAR 08 2013
Memorandum

To:


From:


Subject:       Draft Audit Report- GovTrip Use and Monitoring by the US. Department of the
               Interior- Bureau ofIndian Affairs Report No. WR-IN-BIA-0005-2013

Indian Affairs appreciates the opportunity to comment on the U.S. Department of the Interior
Office oflnspector General (OIG) Draft Audit Report- GovTrip Use and Monitoring by the US.
Department of the Interior -Bureau of Indian Affairs and provides the following response to the
report's recommendations.

OIG Recommendations 1 through 3
BIA should require supervisors to:

1. Verify that vouchers contain supporting documentation as required by the FTR and accurately
   reflect costs incurred during travel;
2. Ensure travel authorizations are created and approved prior to travel with the only exception
   being bona fide emergency travel; and
3. Review vouchers thoroughly and address any unresolved flagged items.

Response:
Indian Affairs concurs with recommendations 1 through 3.

The Chief Financial Officer (CFO)- Indian Affairs issued a Federal Travel Guidance
memorandum (Attachment 1- Memorandum dated January 20, 2012) to all Central and
Regional Office Directors reiterating the responsibility of all Federal Travelers and Approving
Officials to verify that all vouchers contain supporting documentation as required by the Federal
Travel Regulations and accurately reflect the costs incurred during travel. Although the
memorandum addressed guidance regarding certain requirements related to Travel
Authorizations, it was not specific to Recommendation 2. Therefore, the CFO has issued an
updated memorandum (Attachment 2- Travel Guidance Memo) to include more detailed
guidance specifically addressing Recommendations 1 through 3. The memorandum will be
uploaded to the BIA and BIE Intranet.

On March 4, 2013, The Travel Division implemented an internal "Audit Review Checklist"
designed to provide more effective internal controls over: travel vouchers; public vouchers; all
foreign travel; and vouchers selected for random post-payment. The Fiscal Services Travel

                                                                                                   1
                                                                                        Attachment 2
examiner will audit the vouchers using the checklist, sign-off and record the date the review was
completed and document detailed notes for record/action purposes if issues are found.

In addition, the Fiscal Services Division in collaboration with the Acquisitions and Financial
Systems Divisions will hold Web-based training sessions to include Central and Regional Office
Managers. The sessions will provide detailed guidance on all travel related matters (e.g. TDY,
PCS', Charge Card and Systems related matters). In expectation of the new Electronic Travel
System, the training sessions will be designed as a refresher regarding managers' Federal travel
responsibilities.

Indian Affairs considers the actions taken regarding Recommendations 1 through 3 to be
sufficient to address these recommendations.

R spoosible Party:    Chief, Fiscal Services Division
Target Date:          Reissued Memorandum: Completed- Issued February 26, 2013
                      Checklist: Effective March 4, 2013

OIG Recommendation #4
BIA should require supervisors to verify and approve all charges on charge card statements.

Response:
Indian Affairs concurs with Recommendation #4.

Per the Charge Card Policy Manual, dated June 2010, it is the responsibility of the Approving
Official to verify and approve all charges on the charge card statement, Chapter 2.8, Approving
Official (AO):

The AO, as the Accountholder's supervisor, must complete prerequisite training, be approved,
and have received a letter of appointment from their Regional A/OPC. Once approved, AOs
have review responsibilities for all assigned accounts in which they are assigned. Approving
Officials responsibilities include:

   •   Maintain and manage account data;
   •   Perform a monthly review of all transactions and supporting documentation, in
       accordance with AO Monthly Review Checklist, Travel/Purchase (Attachment 3) and
       Attachment 5- AO Monthly Review Checklist, Fleet (Attachment 3), and sign
       Accountholder's monthly statement of account within 30 days of statement date;
   •   Certify to the Regional Director that all monthly reviews have been completed for
       assigned accounts on time;
   •   Ensure transactions are certified and allocated to the correct cost account;
   •   Verify that all transactions are in accordance with GSA's SmartPay®2 contract, DOl and
       IA policy manuals, travel regulations, and applicable laws and regulations;
   •   Ensure disputes are filed and appropriately resolved and documented;
   •   Assist Regional Agency/Office Program Coordinators (A/OPCs) with transfer transaction
       requests;
   •   Participate in quarterly internal reviews;
                                                                                                   2
                                                                                       Attachment 2
    •   Maintain statement of accounts and supplemental documents for Accountholders who
        have transferred or left government service; and
    •   Re-delegate authority when out-of-office: A supervisor must not permanently delegate
        their review responsibility. An individual designated as "acting supervisor," however, can
        sign on behalf of the supervisor, while the supervisor is on leave or travel to ensure that
        charge card statements are approved in a timely manner. The "acting supervisor" must
        have completed the AO training, and have their own appointment letter.

Responsible Party: Chief, Acquisitions Division
Target Date:       Update Charge Card Policy Manual- September 15, 2013
                   Implement charge card alerts- September 15, 2013
                   DOl Approving Official Refresher Training- March 29, 2013

OIG Recommendation #5
BIA should require supervisors to ensure that both the traveler and supervisor sign and date
charge card statements.

Response:
Indian Affairs concurs with recommendation #5.

Per the Charge Card Policy Manual, it is the responsibility of the cardholder and approving
official to ensure the statements have been signed and dated, Chapter 5.8 Account
Reconciliation:

Detailed reconciliation is a vital step in maintaining the efficiency and accuracy of the Integrated
Charge Card Program (ICCP). To reconcile the account, the Accountholder must:

    •   Verify the charges on the statement by comparing them to the sales receipts (incorrect or
        over charges, addition of sales tax, double charging, unrecognized charges, or other errors
        should be apparent);
    •   Annotate the Travel Authorization number next to each transaction;
    •   Annotate the cost account charged;
    •   Verify charges are billed to the correct account (individual or central accounts);
    •   Annotate any disputes or transactions being refunded (credits) in part or full with the
        amount and date refunded;
    •   Sign and date the last page of the statement within 30 days from statement date; and
    •   Provide statement and supplemental documents to AO for review within 30 days of
        statement date (AO signature and date must be placed besides the Accountholder's within
        30 days of statement date).

If charges were not made during the statement period, the Accountholder will not receive a
statement of account. If the Accountholder believes there were charges on the account during
the statement period, they should contact their A/OPC. The A/OPC can check the account and
supply the statement as necessary.


                                                                                                  3
                                                                                    Attachment 2
Once the statement has been reconciled by the Accountholder, the statement of account and
supplemental documents of all transactions should be provided to the AO within 30 days of the
statement date. The AO must review all transactions on the statement of account in accordance
with Attachment 4. After the account has been reconciled by the Accountholder and the AO, the
statement and all supplemental documents must be centrally filed for a period not less than 3
years and made available for review or audit.

Responsible Party:    Chief, Acquisitions Division
Target Date:          Update Charge Card Policy Manual- September 15, 2013
                      Implement charge card alerts- September 15,2013
                      DOl On-Line Charge Card Refresher Training- March 29, 2013

Recommendation #6
BIA should make changes to correct existing deficiencies, including working with the bureau
travel leads to ensure that profiles of existing and past employees are not deleted from the
system.

Response:
Indian Affairs concurs with recommendation #6.

Twenty-seven (27) profiles were inaccessible by OIG at the time of audit due to: last name
changes, detached (not deleted) profiles, and BIE profiles, which had not been manually added
into the Global Group Membership in GovTrip. The latter was a GovTrip configuration
oversight related to the uniqueness and complexity of lAs separate Organization structure for
BIA and BIE within the same GovTrip environment. All 27 profiles and associated documents
are currently accounted for and accessible.

Responsible Party:    Chief, Financial Systems Division
Target Date:          Completed February 19, 2013

Recommendation #7
BIA should make changes to correct existing deficiencies, including creating policy limiting the
use of auto-approval by employees to legitimate emergency travel.

Response:
Indian Affairs concurs with recommendation #7

Out of approximately 10,000 IA travelers, 106 profiles had the Auto-Approve feature selected.
Indian Affairs has de-selected the Auto-Approve feature from all IA traveler profiles and notified
all IA Regional FATAs ofthis de-selection on February 11,2013.

Responsible Party: Chief, Financial Systems Division
Target Date:       Completed February 11, 2013

Indian Affairs considers the actions taken regarding Recommendations 6 and 7 sufficient to
address these recommendations.

                                                                                                4
                                                                                   Attachment 2
Recommendation #8
BIA should make changes to correct existing deficiencies, including creating policy requiring
supervisors to reconcile charge card statements with travel vouchers.

Response:
Indian Affairs concurs with recommendation #8

(Please refer to,Recommendation 5 and Memorandum dated February 22, 2013)

Responsible Party:     Chief, Acquisitions Division
Target Date:           Update Charge Card Policy Manual- September 15, 2013
                       Implement charge card alerts- September 15, 2013
                       DOl On-Line Charge Card Refresher Training- March 29, 2013




                                                                                                5
                        Attachment l - Memorandum dated January 20, 2012
                                                                                     Attachment 2
                United States Department of the Interior
                              OFFICE OF THE SECRETARY
                                 Washingron, DC 20240



Memorandum                               .• ~ J
TO:            All Regional Office Directors
               All Central Office Directors
FROM:          Chief Financial Officer   ~~                     "     V' ck; 'For("4
SUBJECT:        Federal Travel

It is the responsibility of all Federal Travelers and Approving Officials to verify the
accuracy of claims made when preparing and submitting electronic or manual travel
vouchers. Travel voucher claims must reflect authorized expenses, as stated in the Travel
Authorization. Any expenses not keeping with the Travel Authorization must be
specifically authorized, as directed by policy and regulation. If a claim is inaccurate or
incorrect, it is the role of the Approving Official to return the travel voucher to the
Federal Traveler for correction.

Travel Authorizations should accurately estimate necessary expenses required for travel
and must comply with the applicable regulations outlined in the Federal Travel
Regulations, departmental policy guides, and Financial Management Memorandums
before approval. Any inaccuracies should be corrected, to the best of the Federal
Traveler's and the Approving Official's knowledge, before any Travel Authorization is
issued.

Responsibilities of the Approving Official:

      • To ensure that employees who are expected to travel receive an individual
        Govenunent-sponsored travel charge card prior to commencing official travel.
      • To authorize and approve travel in support of the organization's mission.
      • To ensure directed travel is carried out as efficiently and effectively as possible.
      • To approve and review travel vouchers promptly upon receipt.
      • To ensure approved travel was necessary to achieve program objectives, charges
        appear reasonable and travel actually took place.

Responsibilities of the Federal Traveler:

      • To perform official travel, as directed by your supervisor.
      • To use your individual Government-sponsored travel charge card for all
        chargeable expenses associated with official travel.
      • To abide by Federal, Departmental and bureau policies and procedures governing
        official travel.




                                                                                                        6
                                                                                               1 of 8
                                                                               Attachment 2

     • To limit your ATM travel advance amount to estimated meals and incidental
       expenses that cannot be charged to your travel card, as authorized by
       Departmental policy and Government travel regulations.
     • To use the services of the Department's reconunended or contracted Travel
       Management Center(s) for all travel related services.
     • To submit your travel voucher for approval within five days after completion of
       travel.

The Indian Affairs Travel Team is available at (703) 390-6345 to provide assistance or
answer any travel related questions you may have.




                                                                                                 7
                                                                                         2 of8

                                                                       '
                                  Attachment 2 - Federal Travel Guidance

                   Unit d rat                                    h In n.        r       Attachment 2

                                                      EC RI~   RY
                                                      • 20-




MemQrandum

                 II Regional Otlicc Dirt-(.;tors
                All G ntrnl ftke.DirccH:lys ~
From:           Ed' ard King ~ · "-                .-a
                Acting Chi fPinancial fficer - lncHan Affair

 ' ubj ect:     l .uance of' R i ed · dural Trav I uidan e

  he pwpose ef this r i cd memorandum original mem is. ued on July 20 20 12) is lo provid
 dditional gujdance and reitcrat~ to Indian Affair cmpl yees t.hat it is the rcspon ·ibi'lity f. all
  ederal Traveler~ {lnq A pro ing fficinls t verify tpe accurac of cla ims made when preparing
and submiuing clectronlc and man.uallra I vouchers. It is t:hc respon:;i ilily of U1 Pederul
Tra eler t ·acpurat ly record lh COl'!'lplere detail of't~ ·e t, with supporting documeutati n
attach d, and it l there pon ibi'lity of the Approvmg f1icial to erif that v ueh r contain
SLJpportlng documentation required b the Fe Jeral Travul R gulati n (F R) and accurate!
reflect costs inc1.1rred during tra el.

Travel veucher claim · mu ·t reflect authorized e. peu ~c , · rated in the ra. I Aulhorizati n.
Any expen es oot k~eping,.. ith th ravel Autbori7..alion must b pe ifically a41h rized a
directed by policy and r gulation. If a- cla im is ina ~urate r iucorr ct, it js the r le of th
Appr ing Officj. I t return the travel voucher to th Pederal Tra elcr f r jtLS!ific,ation and/or Lo
mak ·the neces. ary chang· sin clalu1 d cxp nse . ReconciH tion of charg card stat ment nd
travc;l oncher shalJld ' performed b· 1he liedcral Tra- eler and Apprqv ing _tlici I.

 Tra cl Authodzation should CJCCtu: 11el estimate nccc. sary exp nse required l'hr ffi ial ti'U el
 and must comply with the applicable r ·gulutioos .utllued in the tTR §300 1hr ugh *304),
 departmental p licy g1.1ide • and Fimn\cial Mnnngemenl M m randum~ · lor ilppr val.
   pproving · fftcjals mw I ensure tra el autl1ori7..:ati n · are created and appro , ~ prior f tra
 with tbe only exception be.in,g bona fide emergency travel FTR '30 1-30 . An inac ·uracj~
 shou)d be corrected, to the be. t of the F d. ral Tr~ eler' · amlthe · ppro ing fliciul's
.kn·owledge b fQre any Tra eJ Authorization is issued.




                                                                                                       8
                                                                                                  3 of 8
                                                                                         Attachment 2



Responsibi lilies of th~ Approving Official:

    •   To ensure that employees who arc expeclcd to U'avel receive an individual Government-
        sponsored travel charge card prior to commencing official travel.
    •   To authorize and approve travel in support or the organi7.atit.m's mission.
    •   To ensure travel authorizations arc created and approved prior to travel, with the only
        exception being bona tide emergency travel.
    •   To ensure directed travel is carried Otlt as et1iciently and effectively as possible.
    •   To verjfy that authori?.ations and vouchers contain supporting documentation as required
        by the FTR and accurately reflect costs incurred during travel.
    •   To approve· and review vouchers thoroughly. addressing. any lillresolved flagged items.
        promptly upon receipt.
    •   To ensure approved travel was necessary to·achicve prognun objectives. charges appear
        rea~onable and travel actually took plnoe.
    •   To ensure reconciliation of charge card statement and travel voucher be performed by Lhe
        Federal Traveler and Approving Official.

Responsibilities of the Pedcral Traveler:

    •   To perfonn official travel, with prior approval and supporting dooumemation.
    •   To use your individual Government-sponsored travel charge card for all chargeable
        expenses associated with officinJ trawl.
    •   To abjde by Fe<ieral, Departmental and bureau policies and procedures governing oJflcial
        travel.
    •   To limit yolrr ATM travel advance an1ount to estimated meals and incidental expenses
        that cannot be charged to your travel card. as authorized by Departmental policy and
      Government u·avel regulations.
    • To use the sorvkos of the: Department's recommended or contracted Travel Management
      Centcr(s) for,alltravel·related services.
    • To accurately record the complt:te details of travel. wich supporting docmnemation
      attached.
    • To submit your travel voucher for approval wiU1in five days after completion of travel.
    • To reconcHe charge card statement with travel voucher.

Please note that all guidance related to Travel can be found by visiting the BIA In1rauel      At
htlp://insidc.bia.gov/!3mpluycef rravclff ruvciPo li cy/i nd~x . hun·and the Bill Intranet m
htlp://insidc,hic.edu. Also, the most recent FTR publication ctlll be accessed at
htll)://gsa,g,o\'/ponal/cntegorv/2 1222 .




                                                                                                      9
                                                                                                    4of8
                                                                                     Attachment 2

The Indian Affairs Travel Team is ~vailab le at (703) 390-6345 to provide as~ istance or answer
any travel related questions you may have.

cc: All Employees




                                                                                                   10
                                                                                                  5 of8
                                                Attachment 3 - AO Monthly Review
                                                Travel/Purchase Checklist
                                    Attachment 4
                AO Monthly Review Checklist
                                     (Travel/Purchase)
Yes   No NIA

 0    0     D       Is the statement signed and dated by the Accountholder?
 D    0     D      Are all transactions in accordance with applicable laws, regulations, policies and
                   procedures and necessary and appropriate to execute the program mission?
0     0     D      Are all transactions approved and purchased at a reasonable price?
 D D D             Are all transactions within the Accountholder's single purchase limit or micro-
                   purchase threshold when appropriate?
 D D D             Were transactions split into smaller purchases to circumvent the Accountholder's
                   single purchase limit or micro-purchase threshold when appropriate?
D     0    D       Are all transaction receipts itemized? Do all the itemized invoice/receipts match the
                   amount on the statement of account?
0     D    D       If the item was improperly charged to the account, were dispute or fraud procedures
                   initiated?
D D D              When applicable, were purchases obtained from required sources such as Ability
                   One, Native American Owned Vendors, or Federal Supply Schedule?
D D D              Were all transactions clearly indicated as received on supplemental documents (date
                   received and printed name of person in receipt of goods or services)?
D     0    D       Were all purchase transactions entered on the Accountholder's purchase log?
D D D              If a transaction was incorrectly billed, were proper procedures followed to transfer
                   transactions between individually-billed to centrally billed (or visa-versa)? Was
                   statement annotated?
0     D    D       Have cost allocations, including BOCs, or Travel Authorization numbers been
                   annotated on the statement and has appropriate action been initiated to ensure
                   timely cost transfers (prior to the next billing cycle)?
D D 0              If an unauthorized transaction was made, were proper procedures followed to ensure
                   repayment of funds by the user who made the purchase? Were appropriate penalties
                   initiated and offense documented and mailed to the Central Office? Was statement
                   annotated?
D     0    D       Have you signed and dated the statement as the AO within 30 days?

- I certify that I have perfonned the required Approving Official duties for (ACCOUNTHOLDER'S NAME)
for the (STATEMENT DATE) statement period. I declare that, except where noted, all transactions are
valid in support of the Bureau'~ mission and compliant with Federal and DOl regulations and
burrJau/office supp/9mental guidance.

Approving Official Printed Name: - - - - - - - - - - - - - - - - -


Approving Official Signature:-- - - - - - - - - - - - - - - - -


Date: - - - - - - - - - - -


                                                                                            ATTACHMENT4
                                                                                                   Page 1

                                                                                                          6 of 8
                                                                                              Attachment 2
                                     Attachment 4
                AO Monthly Review Checklist
                                      (Travel/Purchase)
Convenience Checks:
Yes   No N/A

 0 D D              Were all transactions in accordance with the Travel/Purchase checklist?
 D D D              Were convenience checks the last payment option (A convenience check must not
                    be used if the vendor/individual accepts the charge card, is willing to accept an
                    electronic payment, or if another vendor accepts the charge card and offers similar
                    goods or services)?
0     D     0       Were convenience checks issued to prohibited sources?
 D D D              Were convenience checks issued for travel-related expenses?
0     D     D       Are carbon copies of all issued checks attached to the supplemental documents?
D D D               Were all convenience check transactions listed on the Accountholder's purchase log?
0 D D               Were all convenience check fees entered on a separate line of the purchase log?
D D D               Has an IRS 1099-MISC Form been completed and submitted to National Business
                    Center for processing for reportable budget object classifications?

Convenience Checks Inventory:

Convenience c.heck numbers for all issued checks during the billing cycle:




Convenience check numbers for all unused convenience checks:




- I certify, except where noted, that all convenience checks issued by (ACCOUNTHOLDER'S NAME)
during the (STATEMENT DATE) statement period are valid in support of the Bureau's mission. All
convenience checks are compliant with Federal and DOl regulations and bureau/office supplemental
guidance. Furthermore, I certify that I have visually inspected unused convenience checks.

Approving Official Printed Name: - - -- - - - - - - - - - - - - -


Approving Official Signature: - - - - - - - - - - - - - - - - - -


Date: - - - - - - - - - - -




                                                                                           ATIACHMENT4
                                                                                                  Page2

                                                                                                     7 of 8
                                                 Attachment 4 - AO Monthly Review
                                                 Fleet Checklist
                                     Attachment 5
                  AO Monthly Review Checklist
                                                (Fleet)
Yes   No    N/A

D     D     D       Is the statement signed and dated by the Accountholder?
D     D     0       Have the Accountholder and all authorized users completed required training?
D     D     D       Are all transactions in accordance with applicable laws, regulations, policies and
                    procedures and necessary and appropriate to execute the program mission?
D     0     0       Are all transactions within the account's single purchase limit or micro-purchase
                    threshold when appropriate?
D     D     D       Were transactions split into smaller purchases to circumvent the account's single
                    purchase limit or micro-purchase threshold when appropriate?
0     D     D       Are all transaction receipts itemized? Do all the itemized invoice/receipts match the
                    amount on the statement of account?
D     0     D       Are authorized users recording the proper information (printed name, signed name,
                    and odometer reading) on receipts?
0     0     0       Are all purchases for the vehicle/equipment assigned to the account?
D     D     0       If the item was improperly charged to the account, were dispute or fraud procedures
                    initiated?
D      D    0       Were all transactions entered on the Fuel/Maintenance Log?
D     ,0    D       If an unauthorized transaction was made, were proper procedures followed to ensure
                    repayment of funds by the user who made the purchase? Were appropriate penalties
                    initiated and offense documented and mailed to the Central Office? Was statement
                    annotated?
0     D    0        Have cost allocations, including BOCs, been annotated on the statement and has
                    appropriate action been Initiated to ensure timely cost transfers (prior to the next
                    billing cycle)?
0     0    0        Have you signed and dated the statement as the AO within 30 days?

-I certify that I have performed the required Approving Official duties for(ACCOUNT NAME) for the
(STATEMENT DATE) statement period. I declare, except as noted, that all transactions are valid in
support of the Bureau's mission and compliant with Federal and DOl regulations and bureau/office
supplemental guidance.

Approving Official Printed Name: - - - - - - - - - - - - - - - - -


Approving Official Signature: - - - - - - - - - - - - - - - - - -


Date:-- - - - - - - - - -




                                                                                             ATIACHMENTS

                                                                                                           8 of 8
                                                              Attachment 3


Status of Recommendations

    Recommendations             Status              Action Required
                                               The recommendations will be
                                                 referred to the Assistant
                            Resolved but not
          1 and 2                                   Secretary for Policy,
                             implemented
                                                Management and Budget for
                                                tracking of implementation.




                                                                          1
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
